Report No. D-2010-053              April 16, 2010




        Demographic Data Supporting the DOD Mass
          Transportation Benefit Program Within
               the National Capital Region
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CPMS                          Civilian Personnel Management Service
DFAS                          Defense Finance and Accounting Service
DMDC                          Defense Manpower Data Center
DOT                           Department of Transportation
GAO                           Government Accountability Office
IG                            Inspector General
MOA                           Memorandum of Agreement
MTB                           Mass Transportation Benefit
NCR                           National Capital Region
OMB                           Office of Management and Budget
PFPA                          Pentagon Force Protection Agency
TRANServe                     DOT Transportation Services
USD(P&R)                      Under Secretary of Defense for Personnel and Readiness
WHS                           Washington Headquarters Services
                                    INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFE NSE 

                                      400 ARMY NAVY DR IVE 

                                AR LIN GTON, VIRG INIA 22202-4704 




                                                                                     April 16, 2010


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS
              WASHINGTON HEADQUARTERS SERVICES
               PENTAGON FORCE PROTECTION AGENCY

SUBJECT: Demographic Data Supp011ing the DOD Mass Transp011ation Benetit
         Program Within the National Capital Region (Report No. D-20 10-053)


We are providing this report for your information and use. No written response to this report is
required. Therefore, we are publishing this report in final form.

We appreciate the cOUl1esies extended to the staff. Please direct questions to me at (703) 601-5868
(DSN 664-5868).

                                             I~Q-m~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2010-053 (Project No. D2008-D000FE-0124.000)                     April 16, 2010


              Results in Brief: Demographic Data
              Supporting the DOD Mass Transportation
              Benefit Program Within the National Capital
              Region


                                                               participants collected $613,700 in mass
What We Did                                                    transportation benefits in FY 2007; and
This is the second in a series of audits covering          •		 642 participants obtained subsidized
the DoD Mass Transportation Benefit Program                    parking benefits improperly and collected
within the National Capital Region. The                        $312,400 in mass transportation benefits
overall objective of this audit was to assess the              in FY 2007.
reliability and completeness of the data used to
determine eligibility of Mass Transportation          In addition, an estimated 15,869 participants had
Benefit Program participants within the               inadequate audit trails. We also identified
National Capital Region.                              10 potential cases of fraud, waste, and abuse
                                                      during our audit. Specifically, we identified
                                                      participants that potentially were ineligible to
What We Found                                         participate in the Program, obtained excessive
Mass Transportation Benefit Program data used         mass transportation benefits, or obtained dual
by Washington Headquarters Services to verify         benefits (both mass transportation benefits and
participant eligibility and distribute Mass           subsidized parking) during FY 2007. We
Transportation Benefits to DOD participants           referred these cases to the Defense Criminal
was incomplete and unreliable. Specifically, an       Investigative Service for possible investigation.
estimated 32,565 of 41,279 participants in the        In addition, by separate memorandum, we
Mass Transportation Benefit Program had               requested Washington Headquarters Services to
inaccurate or incomplete critical data, were          coordinate with participating agencies to recoup
possibly ineligible to collect benefits, or           other erroneous mass transportation benefits
improperly obtained subsidized parking                distributed to participants.
benefits. As a result, an estimated:
                                                      What We Recommend
 •		 4,953 participants in the Mass
     Transportation Benefit Program overstated        The Office of the Under Secretary of Defense
     their benefit cost calculations by a total of    for Personnel and Readiness and Washington
     an estimated $1.5 million. Of the 4,953          Headquarters Services took actions during this
     participants, an estimated 4,128 collected       audit that adequately address the internal control
     $587,100 in excess benefits in FY 2007;          weaknesses identified in this report and the first
                                                      report on the Mass Transportation Benefits
 •		 12,934 participants with unverifiable
                                                      Program. Therefore, we did not make
     benefit cost calculations collected
                                                      recommendations in this report.
     $8.4 million in mass transportation
     benefits in FY 2007. An unknown number
     of these individuals may have overstated         Management Comments
     their benefit cost estimates and collected       No written response to this report is required.
     excessive benefits;                              Therefore, we are publishing this report in final
 •		 826 participants’ eligibility to collect 
       form.
     benefits could not be verified. These




                                                     -i-
Report No. D-2010-053 (Project No. D2008-D000FE-0124.000)          April 16, 2010

Recommendations Table

         Management                 Recommendations         No Additional Comments
                                   Requiring Comment              Required
Under Secretary of Defense for   None                       None
Personnel and Readiness

Washington Headquarters          None                       None
Services

Pentagon Force Protection        None                       None
Agency




                                            - ii ­
Table of Contents

Introduction		                                                         1


       Objective                                                       1

       Background                                                      1

       Review of Internal Controls                                     2


Finding. DOD Mass Transportation Benefit Program Data Reliability      4


       Management Actions		                                           10 


Appendices

       A. Scope and Methodology		                                     11 

               Prior Coverage                                         12 

       B. Mass Transportation Benefit Program Enrollment Database


            Testing Methodology and Results                           13 

       C. Statistical Sampling Methodology and Results		              16 

       D.		 Mass Transportation Benefit Program Processes             18 

               Pre – FY 2008 Process                                  18 

               Post – FY 2007 Process                                 20 

Introduction
Objective
This is the second in a series of audits covering the DOD Mass Transportation Benefit
(MTB) Program within the National Capital Region (NCR). The overall objective of this
audit was to assess the reliability and completeness of the demographic data used to
determine eligibility of DOD personnel enrolled in the MTB Program within the NCR.
Specifically, we performed tests on the demographic data of a statistical sample of
MTB Program enrollees to determine MTB Program enrollment database reliability, and
establish a baseline for future testing of MTB Program participant demographic data. 1
See Appendix A for a discussion of the scope and methodology.

Background
Executive Order 13150, “Federal Workforce Transportation,” signed by President
Clinton on April 21, 2000, required Federal agencies to establish transportation fringe
benefit programs by October 1, 2000. The goal of these programs is to reduce Federal
employees’ contribution to traffic congestion and air pollution and to expand their
commuting alternatives.

The Office of the Secretary of Defense memorandum, “Mass Transit Program in the
National Capital Region,” August 16, 2000, provides guidance on implementing the
MTB Program within the NCR. 2 The memorandum states that Washington Headquarters
Services (WHS) is responsible for implementing and administering the program, with the
help of the Department of Transportation (DOT), for all DOD employees (civilian,
military, and non-appropriated fund) in the NCR. The memorandum also states that
individual DOD components will be responsible for providing ongoing enrollment
information to their employees, to include the enrollment application form developed by
WHS.

WHS and the Department of Transportation, Transportation Services (TRANServe)
entered into a Memorandum of Agreement (MOA) on July 6, 2000, to define the services
TRANServe would provide to WHS on a reimbursable basis to implement the DOD
MTB Program within the NCR, and the responsibilities of both parties in this endeavor.
WHS was to develop (with advice from TRANServe) necessary program application and
certification forms, establish criteria for DOD to determine DOD employee eligibility to
participate in the MTB Program, and retain oversight over all MTB Program data.


1
  In the first audit, we relied upon the results of smaller judgmental samples to confirm internal control
deficiencies identified during our walkthroughs of the overall MTB Program within the NCR.
2
  The National Capital Region comprises the District of Columbia; Montgomery, Prince George’s, and
Frederick Counties in Maryland; Arlington, Fairfax, Loudoun, and Prince William Counties in Virginia;
and all cities in Maryland or Virginia within the geographic area bounded by the outer boundaries of the
combined area of those counties.


                                                      1

TRANServe’s responsibilities included:

      •		 cross-referencing MTB Program applicants against the Pentagon Force Protection
          Agency (PFPA) parking database to verify eligibility; 3
      •		 processing applications for the MTB Program;
      •		 maintaining application information in an enrollment database that identifies all
          DOD participants in the MTB Program;
      •		 maintaining sufficient records and information to comply with audit requirements;
          and
      •		 making quarterly distributions to DOD participants (participants) enrolled in the
          MTB Program.

In FY 2007, WHS paid TRANServe $1.9 million to meet its responsibilities set forth in
the MOA.

Under the MTB Program, DOD Components within the NCR are required to provide a
transportation fringe benefit for employees who use mass transit or van pools. The
amount of the benefit should be equal to the individual’s personal commuting costs but
not exceed the maximum allowed by the Internal Revenue Code, which was $105.00 for
October 2006 to January 2007, and $110.00 per month for the remainder of 2007. DOD
civilian and military personnel and non-appropriated fund employees are eligible to
participate in the MTB Program. TRANServe issued $35.1 million in transit subsidy
benefits to 41,279 DOD employees within the NCR in FY 2007. With enactment of the
“The American Recovery and Reinvestment Act of 2009” on March 2, 2009, the monthly
maximum allowance in the MTB Program benefit immediately increased from $120 to
$230 per month – a 91 percent increase. WHS’ annual MTB Program budget will
increase to approximately $60 million for FY 2010.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for WHS. WHS did not have the following internal controls in the MTB
Program: independent reviews, authorizations, and approvals to ensure that enrollment
and change management applications were valid, accurate, and complete; periodic
recertification of participant eligibility for benefits to identify and remove ineligible
individuals from the enrollment database; periodic reconciliation of enrollment and
subsidized parking databases to identify participants who improperly obtain parking
permits; and policies and procedures to ensure that benefits are not permitted if the DOD
participant is named on a federally subsidized workplace motor vehicle parking permit,
including motorcycles. Although we identified internal control weaknesses, we are


3
    Pentagon Force Protection Agency took on this responsibility in September 2000.


                                                      2

making no recommendations because the Under Secretary of Defense for Personnel and
Readiness (USD(P&R)) and WHS took steps during this audit to improve MTB Program
internal controls. The steps are discussed in detail in Appendix D. We will provide a
copy of the final report to the senior official in charge of internal controls for the DOD
Mass Transportation Benefit Program within the National Capital Region.




                                            3


Finding. DOD Mass Transportation Benefit
Program Data Reliability
Mass Transportation Benefit (MTB) Program data used by WHS to verify participant
eligibility and distribute Program benefits to participants was incomplete and unreliable.
An estimated 32,565 (78.9 percent) of 41,279 participants listed in the MTB Program
FY 2007 enrollment database had inaccurate or incomplete critical data, were possibly
ineligible to collect benefits, or improperly obtained subsidized parking benefits.
Furthermore, an estimated 15,869 participants had inadequate audit trails to trace
enrollment and change management applications to enrollment database entries. 4

MTB Program data for FY 2007 was not reliable because WHS did not adequately
administer the MTB Program within the NCR. Specifically, WHS did not:

•		    implement adequate internal controls over the MTB Program processes in
       accordance with Government Accountability Office (GAO) standards for internal
       control; and
•		    ensure that TRANServe and PFPA adequately carried out their responsibilities in
       the MTB Program.

As a result, an estimated:

       •		 4,953 participants in the Mass Transportation Benefit Program overstated their
            benefit cost calculations by a total of an estimated $1.5 million. Of the
            4,953 participants, an estimated 4,128 collected $587,100 in excess benefits in
            FY 2007;
      •		 12,934 participants with unverifiable benefit cost calculations collected
           $8.4 million in mass transportation benefits in FY 2007. An unknown number of
           these individuals may have overstated their benefit cost estimates and collected
           excessive benefits;
      •		 826 participants’ eligibility to collect benefits could not be verified. These
           participants collected $613,700 in mass transportation benefits in FY 2007; and
      •		 642 participants obtained subsidized parking benefits improperly and collected
           $312,400 in mass transportation benefits in FY 2007.

We identified 10 potential cases of fraud, waste, and abuse during our audit. Specifically,
we identified participants that potentially were ineligible to participate in the MTB
Program, obtained excessive mass transportation benefits, or obtained dual benefits



4
  Change management includes a participant’s change of status (e.g. change in work location or
reducing/increasing transportation subsidy benefit amount) or withdrawal from the MTB Program.



                                                  4


(both mass transportation benefits and subsidized parking) during FY 2007. We referred
these cases to the Defense Criminal Investigative Service for possible investigation. In
addition, by separate memorandum, we requested Washington Headquarters Services to
coordinate with participating agencies to recoup other erroneous mass transportation
benefits distributed to participants.

MTB Program Processes
The MTB Program includes the enrollment, change management, database management,
records management, and distribution processes. See Appendix D for a detailed
description of the MTB Program processes.

Criteria for MTB Program Internal Controls
OMB Circular A-123 “Management’s Responsibility for Internal
Control”
OMB establishes requirements for all Federal Agencies, including DOD. In OMB
Circular A-123, “Management’s Responsibility for Internal Control,” December 21,
2004, OMB defines management's responsibility for internal control in Federal agencies.
The Circular provides guidance to Federal managers on improving the accountability and
effectiveness of Federal programs and operations by establishing, assessing, correcting, and
reporting on internal control. The attachment to this Circular defines the process for
assessing internal control effectiveness along with a summary of the significant changes and
emphasizes the need for integrated and coordinated internal control assessments that
synchronize all internal control-related activities.

GAO “Standards for Internal Control in the Federal Government”
GAO Publication, “Standards for Internal Control in the Federal Government,”
November 1999 states that the five standards for internal control are control environment,
risk assessment, information and communications, monitoring, and control activities. Of
the five standards, control activities are an integral part of an entity’s planning,
implementing, reviewing, and accountability for stewardship of government resources
and achieving effective results. Control activities are the policies, procedures,
techniques, and mechanisms that enforce management’s directives, such as WHS’
responsibility to administer the MTB Program within the NCR. Control activities are
utilized at all levels and functions of an entity. They include such activities as
segregation of duties, proper execution of transactions and events, accurate and timely
recording of transactions and events, establishment and review of performance measures,
and appropriate documentation of transactions.

MTB Program Enrollment Database
An estimated 32,565 (78.9 percent) of 41,279 participants listed in the MTB Program
FY 2007 enrollment database had inaccurate or incomplete critical data, were possibly
ineligible to collect benefits, or improperly obtained subsidized parking benefits.
In addition, an estimated 15,869 participants had inadequate audit trails to trace
enrollment and change management applications to enrollment database entries.


                                              5


Data Accuracy and Completeness
Of the estimated 32,565 participants with exceptions, an estimated 31,097 MTB Program
participants had inaccurate or incomplete critical data in the enrollment database. This
occurred because WHS did not implement adequate controls in the MTB Program’s
enrollment and change management processes. In addition, WHS did not ensure that
TRANServe adequately processed MTB Program enrollment and change management
applications.

GAO Internal Control Standards state that:

   •		 key duties and responsibilities need to be segregated among different people to
       reduce the risk of error or fraud. This assures that no one individual will control
       all key aspects of a transaction or event, such as both applying for and certifying
       eligibility to receive MTB Program benefits;
   •		 transactions should be authorized and executed only by persons acting within the
       scope of their authority. This assures that only valid transactions to use resources,
       such as applying for MTB Program benefits are initiated or entered into; and
   •		 transactions should be accurately, completely, and promptly recorded to maintain
       their relevance and value to management in controlling operations and making
       decisions. This assures that DOD participants complete and file only valid,
       accurate, and complete enrollment applications.

Instead of implementing these internal controls, WHS developed an enrollment
application form, “Department of Defense NCR Public Transportation Benefit Program
Application” (DD Form 2845) that allowed DOD participants to:

   •		 self-certify their eligibility for MTB Program benefits and the accuracy and
       completeness of their enrollment applications;
   •		 submit enrollment applications for processing without an independent review
       process to verify applicants’ eligibility for benefits and the accuracy and
       completeness of the applications; and
   •		 calculate their estimated monthly benefit costs without appropriate support.

Self-certification provides no assurance that DOD employees will file accurate and
complete MTB Program applications. DOD employees certified enrollment and change
management applications with inaccurate and incomplete information and submitted
these for processing. Critical data exceptions included overstated benefit cost
calculations and inaccurate and incomplete work location/building, and city, state, and
zip code of residence. TRANServe then processed the self-certified, inaccurate, and
incomplete enrollment and change management applications into the enrollment
database.

In addition, DD Form 2845 states that application information must be complete to be
processed. DD Form 2845 has at least 20 data fields that all applicants must complete for
enrollment purposes. However, WHS did not ensure that TRANServe adequately
implemented this control. TRANServe processed applicants into the enrollment database


                                             6


as long as applicants only completed 7 data fields on the DD Form 2845 – last name, first
name, last four digits of social security number, signature, employer/service, organization
code, and benefit cost calculation. WHS did not ensure that TRANServe rejected
incomplete enrollment and change management applications. Critical data omitted
included applicants’ work location/building, and city, state, and zip code of residence.
This data is needed to effectively verify DOD participants’ monthly benefit cost
calculations.

Potentially Ineligible MTB Program Participants
Of the estimated 32,565 DOD participants with exceptions, an estimated 826 were
possibly ineligible to collect benefits. 5 This was because WHS did not implement
adequate internal controls over the MTB Program’s enrollment and database management
processes.

GAO internal control standards state that transactions should be authorized and executed
only by persons acting within the scope of their authority. This control activity assures
that only valid transactions to use resources, such as applying for eligibility to receive
MTB Program benefits, are initiated or entered into. However, WHS did not implement
controls such as independent review, authorization, and approval of MTB Program
enrollment applications. Instead, WHS relied on DOD employees to self-certify their
enrollment applications. Self-certification provides no assurance that DOD employees
will file valid MTB Program applications. In the absence of adequate internal controls,
there is a high risk that ineligible individuals can file enrollment applications and get
enrolled into the MTB Program. In turn, TRANServe will process potentially ineligible
individuals into the enrollment database.

GAO internal control standards also state that control activities can help ensure that
actions are taken to address risks, such as the increased risk of unverified and potentially
ineligible individuals obtaining eligibility for MTB Program benefits. Periodic
recertification of participant eligibility for MTB Program benefits can help TRANServe
to identify and remove ineligible individuals from the enrollment database. However,
WHS did not implement this type of control in the database management process.

Dual Benefit Participants
Of the estimated 32,565 DOD participants with exceptions, an estimated 642 DOD
participants improperly obtained subsidized parking benefits and thus, obtained dual



5
  Out of 450 MTB Program sample participants, we identified 9 (statistically projected to 826) participants
whom we could not verify as eligible after researching several independent DOD personnel databases. Six
of the nine participants obtained mass transportation benefits greater than $500 in FY 2007 and continued
to collect benefits in FY 2008. Because we were not able to compare and verify the data in the MTB
Program database with the data maintained in the personnel databases, we concluded that these participants
were possibly ineligible to collect benefits. See Appendix A for the specific personnel databases used for
this audit.



                                                     7

benefits. This occurred because WHS did not ensure that PFPA periodically performed
database reconciliations in the MTB Program’s database management process.

Database Reconciliations
An estimated 367 of the estimated 642 participants obtained subsidized parking benefits
and did not withdraw from the MTB Program. GAO Internal Control Standards state that
comparisons can be made relating different sets of data to one another. Analyses of the
relationships can be made between these data sets to identify anomalies and corrective
actions can be taken if necessary. However, WHS did not ensure that PFPA periodically
reconciled its subsidized parking database with the MTB Program enrollment database
maintained by TRANServe. PFPA receives the MTB enrollment database file from
TRANServe on a daily basis that can be used to make comparisons with the parking
database. However, PFPA had not performed these reconciliations on a periodic basis.
PFPA could have identified cases where participants had both mass transit and subsidized
parking benefits if it had performed periodic database reconciliations between the
enrollment and parking databases.

Executive Order 13150 Goal to Reduce Air Pollution
An estimated 275 of the estimated 642 DOD participants improperly obtained subsidized
motorcycle parking permits. Executive Order 13150 states that one goal of transportation
fringe benefit programs is to reduce Federal employees’ contribution to air pollution.
However, WHS did not ensure that PFPA followed the goal of Executive Order 13150 to
reduce air pollution. Specifically, PFPA allowed MTB participants to obtain subsidized
parking permits for motorcycles. PFPA stated that motorcycles are a means of
transportation that fits one of the goals the MTB Program wants to accomplish – to
improve air quality. However, the Environmental Protection Agency has stated that
motorcycles produce more harmful emissions per mile than driving a car or even a large
sport utility vehicle.

Table 1 summarizes the inaccurate or incomplete critical data, possibly ineligible to
collect benefits, and dual benefits exceptions.

               Table 1. MTB Program Enrollment Database Exceptions
                Exception           Estimated        Percent (of Total
                                   Participants     Universe of 41,279
                                                       Participants)
       Inaccurate or Incomplete       31,097                75.3
       Critical Data
       Possibly Ineligible to            826                 2.0
       Collect Benefits
       Dual Benefits                     642                 1.6
                  Total               32,565                78.9




                                             8


Adequacy of Audit Trails
Of the 41,279 MTB Program participants, an estimated 15,869 (38.4 percent) participants
had inadequate audit trails to trace enrollment applications to enrollment database entries.
This occurred because WHS did not implement adequate internal controls over the MTB
Program’s records management process. In addition, WHS did not ensure that
TRANServe complied with the MOA to maintain sufficient records and information to
enable WHS to comply with audit requirements.

GAO Internal Control Standards state that all transactions need to be clearly documented,
and documentation should be readily available for examination and be properly managed
and maintained. This control activity helps to establish audit trails to trace transactions
through an entire cycle, such as the MTB Program’s processes. However, WHS did not
ensure that TRANServe had adequate supporting documentation readily available to
provide audit trails for participants. In addition, WHS did not ensure that TRANServe
properly managed, maintained, and updated enrollment applications. While TRANServe
appeared to organize the enrollment documents alphabetically by year of entry, it was not
done consistently, thus numerous enrollment applications were out of alphabetical and
year of entry order.

Summary
MTB Program data used by TRANServe to verify participant eligibility and distribute
mass transportation benefits to DOD participants was not reliable and as a result:

      •		 An estimated 4,953 MTB Program participants overstated their benefit cost
          calculations, totaling an estimated $1.5 million.6 Of these 4,958 participants, an
          estimated 4,128 collected $587,100 in excessive benefits in FY 2007;

      •		 An estimated 12,934 participants enrolled into the MTB Program with
          unverifiable benefit cost calculations. These participants collected $8.4 million in
          mass transportation benefits in FY 2007. An unknown number of these
          participants may have overstated their benefit cost calculations and may have
          collected excessive MTB Program benefits;

      •		 An estimated 826 participants whose eligibility could not be verified collected
          $613,700 in mass transportation benefits; and

      •		 An estimated 642 participants who obtained subsidized parking permits collected
          $312,300 in mass transportation benefits.

The DOD OIG identified potential cases of fraud, waste, and abuse during this audit and
referred these cases to the Defense Criminal Investigative Service for possible
investigation. In addition, we requested WHS to coordinate with participating agencies
to recoup other erroneous mass transportation benefits distributed to participants.


6
    Based on mass transportation benefit amounts authorized in FY 2007.


                                                     9

Management Actions
The USD(P&R) and WHS took actions during this audit that adequately address the
internal control weaknesses identified in this audit and the Audit of Internal Controls over
the Department of Defense Transit Subsidy Program within the National Capital Region,
DOD IG Report No. D-2008-025, November 23, 2007. See Appendix D for the specific
MTB Program process improvements.




                                            10


Appendix A. Scope and Methodology
We conducted this performance audit from February 2008 through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
This audit was suspended for several months because the audit team was needed to
complete a higher priority audit. We believe that the FY 2007 evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed the accuracy, reliability and completeness of the demographic data
maintained by WHS for the MTB program for DOD personnel enrolled in the DOD Mass
Transportation Benefit Program with the NCR. The demographic data included
enrollment applications (DD form 2845), the enrollment database, distribution database
and the subsidized parking database. We statistically selected and reviewed 450 of the
41,279 enrollees from the MTB enrollment database for FY 2007. See Appendix B for
sample MTB enrollment database testing methodology and results. See Appendix C for
sample selection and test results projection methodology.

Use of Computer-Processed Data
We used computer-processed data to compare data from:

   •		 TRANServe’s enrollment database with computer-processed data from personnel
       systems maintained by the Air Force, Army, Navy, Defense Finance and
       Accounting Service, Civilian Personnel Management Service, and Defense
       Manpower Data Center to determine enrollment database accuracy and
       completeness;
   •		 PFPA’s parking database with TRANServe’s MTB Program’s enrollment
       database to identify DOD participants who improperly obtained subsidized
       parking benefits; and
   •		 TRANServe’s distribution and enrollment databases to determine the dollar
       amount DOD participants collected in excessive MTB Program benefits.

We performed the following procedures to determine whether the computer-processed
data was sufficiently reliable for use in our audit:

   •		 recalculated DOD participants’ MTB Program benefit amounts and compared our
       calculations to the amounts in the enrollment and distribution databases;
   •		 interviewed knowledgeable agency officials to gain an understanding about the
       MTB Program and independent DOD data sources; and
   •		 compared MTB enrollment data to multiple DOD databases to provide sufficient
       corroborating evidence.




                                           11

From these procedures, we believe that the computer-processed data provided sufficient
evidence for purposes of our analysis and findings.

Use of Technical Assistance
We relied on the DOD OIG Quantitative Methods and Analysis Division to develop a
statistical sample of MTB Program participants for testing demographic data, and to
project the results of our tests. See Appendix C for detailed methodology and results.
We also relied upon the Data Mining Branch to provide and interpret personnel data
needed from independent DOD databases.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) testified to
Congress on the Federal Transit Subsidy Program inside the National Capital Region.
The Department of Defense Inspector General (DOD IG) issued one report discussing the
DOD Transit Subsidy Program within the National Capital Region. Unrestricted GAO
reports and/or testimony can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Testimony before the Permanent Subcommittee on Investigations, Committee on
Homeland Security and Governmental Affairs, U.S. Senate, No. GAO-07-724T, “Federal
Transit Benefits Program: Ineffective Controls Result in Fraud and Abuse by Federal
Workers,” April 24, 2007

DOD IG
DOD IG Report No. D-2008-025, “Internal Controls Over the Department of Defense
Transit Subsidy Program within the National Capital Region,” November 23, 2007




                                           12


Appendix B. Mass Transportation Benefit
Program Enrollment Database Testing
Methodology and Results
We performed tests on a statistical sample of 450 participants drawn from a universe of
41,279 participants who received MTB Program benefits during FY 2007 to determine:

   •		   accuracy and completeness of participant information in the enrollment database;
   •		   accuracy of estimated benefit cost calculations and amounts collected;
   •		   existence of dual benefits; and
   •		   adequacy of audit trails to trace enrollment applications to enrollment database
         entries.

See Appendix C, “Statistical Sampling Methodology and Results,” for sample size
selection and sample and projected testing results.

Accuracy and Completeness of Enrollment Database
Information
We compared sample participant data in the MTB Program enrollment database with
related data obtained from independent personnel-related systems maintained by the
Military Services, DFAS, CPMS, and DMDC.

The sample participant data we tested for accuracy and completeness included
identification number (last 4 digits of the participant’s social security number), last name,
first name, middle initial, work location, home city, home state, home zip code, estimated
monthly benefit cost, and military/civilian classification. We identified 320 of the
450 sample participants had inaccurate or incomplete demographic data in the enrollment
database. In addition, 19 of the 450 sample participants had overstated monthly benefit
cost estimates, but no other inaccurate or incomplete information. Table B-1 summarizes
the sample and universe test results for accuracy and completeness testing.

              Table B-1. Accuracy and Completeness Testing Exceptions
                   Category            Sample       Estimated     Percent (of
                                     Participants Participants       Total
                                                                  Universe of
                                                                    41,279
                                                                 Participants)
            Inaccurate or Incomplete     320         29,354           71.1
            Inaccurate Benefit Costs      19           1,743           4.2
                     Total               339         31,097           75.3




                                             13


During our accuracy and completeness testing, we identified 9 (2 percent) out of
450 sample participants who were possibly ineligible to collect benefits. The 9 project to
an estimated 826 DOD participants.

Accuracy of Estimated Benefit Costs
We attempted to test the accuracy of participants’ estimated monthly benefit costs for all
450 sample participants in the MTB enrollment database. We used information obtained
from the following to recreate sample participants’ commutes and recalculate their
estimated monthly benefit costs:

   •		 copies of available application forms (DD Form 2845) for the sample participants
       obtained through our audit trails testing;
   •		 Washington Metropolitan Area Transit Authority website and its links to District
       of Columbia, Virginia, and Maryland bus and/or rail lines;


   • online maps such as Google, along with physical street maps; and


   •		 U.S. Postal Service zip code locator.

We then compared our recreated estimated monthly benefit costs with sample
participants’ estimated benefit costs listed in the enrollment database. Finally, we
compared our recreated estimated monthly benefit costs for the sample participants with
the actual MTB Program benefits the sample participants received during FY 2007. We
obtained the actual MTB Program benefits sample participants received from the
distribution database maintained by TRANServe.

We could not test the estimated monthly benefit cost for 141 (31.3 percent) of the
450 sample participants because critical data elements needed to verify estimated
monthly benefit costs were missing from the enrollment database file and when available,
on copies of the DD Form 2845. The 141 sample participants claimed monthly costs of
$155,255, or an average of $91.76 per month.

Of the remaining 309 sample participants we were able to test, 54 overstated their
estimated monthly benefit cost amount by a total of $16,548, or an average of $25.54 per
month. Table B-2 summarizes the sample and universe test results for the accuracy of
estimated monthly benefit costs.

               Table B-2. Estimated Monthly Benefit Cost Exceptions
Exception       Sample         Estimated     Dollar Impact         Dollar Impact
              Participants    Participants     (Sample)             (Estimated)
Unverified         141             12,934            $ 155,255             $ 14,241,714
Overstated          54              4,953               16,548                1,518,000

We also tested the same participants for the actual monthly benefits collected during
FY 2007. Of the 54 participants that overstated their estimated monthly benefit,
45 participants actually collected $6,400 in excessive MTB Program benefits. Table B-3
summarizes the sample and universe test results for excessive benefits collected by DOD
participants during FY 2007.
                                             14
      Table B-3. MTB Program Benefits Collected in FY 2007 by Exception
  Exception      Sample      Estimated        Sample      Estimated Monetary
               Participants Participants    Monetary            Impact
                                              Impact
  Unverified       141        12,934         $ 91,393          $8,400,000
  Excessive         45          4,128            6,400            587,100


Existence of Dual Benefits
We ran a query that compared the MTB Program enrollment, benefit distribution, and
subsidized parking databases, which identified 26 of 450 MTB Program sample
participants who had both MTB Program and subsidized parking permits during
FY 2007. We identified that 14 of the 26 had obtained temporary parking permits during
FY 2007, and 5 of the 26 had obtained or retained both MTB Program and subsidized
parking permits during FY 2007, but during times exclusive of one another. We
determined that the remaining 7 sample participants were exceptions in that these
participants retained eligibility for MTB Program benefits while improperly obtaining
permanent subsidized parking permits.

Adequacy of Audit Trails
We reviewed enrollment and change application forms (DD Form 2845) of past and
current MTB Program participants to locate supporting documentation that would
provide an audit trail for the 450 sample MTB Program participants. We identified that
audit trails for 173 sample participants were inadequate.




                                          15


Appendix C. Statistical Sampling
Methodology and Results
Population
The population comprised 41,279 DOD participants with unique customer identification
numbers who received mass transportation benefits at any time during FY 2007.

Measures
Our audit focused on two general types of measures: demographic data and mass
transportation benefits. Specifically, we measured the accuracy and completeness of the
demographic data, accuracy of mass transportation benefit estimates, existence of dual
benefits, and adequacy of audit trails.

Parameters
We calculated the interval at the 95 percent confidence level. This means that for any
given estimate, there is a one in twenty risk (five percent) that the true value will not fall
between the upper and lower bounds. Because the report includes a large number of
estimates, the overall risk is greater than five percent that, for at least one estimate, the
true value will fall below the lower bound or above the upper bound. The logic is similar
to that for Russian roulette. The risk of losing each time is one in six, but the risk of
losing becomes greater the more times the game is played even though each time the risk
is only one in six.

Sample Plan
We drew a simple random sample of 450 participants from the 41,279 participants
identified from the payout data.

Analysis and Interpretation
We projected the results of the 450 sample items, customer identification number, tested
to the population of 41,279. Based on the 450 sample customer identification number
test results we statistically calculated the following results:




                                             16


                                                 Table C-1 Statistical Estimates
                                           Dollar Estimate                         Participant Estimates
        Estimate of 
                Lower     Point       Upper                 Lower

   Point

  Upper

         Basis
     Participants with:

            Bound   Estimate      Bound                 Bound

 Bound

 Bound

            (Hits)
1    Inaccurate/Incomplete 

     Critical Data, excluding


           Row 6 below

                     -               -               -    27,587     29,354      31,121       320
2        Eligibility Unverified      $149,484        $613,682       $1,077,880      411         826       1,575          9
3        Subsidized Parking-


                Other

                      -               -               -      108         367         969          4
4        Subsidized Parking-


             Motorbike

                     -               -               -       54         275         841          3
5        Subsidized Parking-


                Total

                $3,808        $312,444        $620,880       284         642       1,339          7
6    Overstated Benefit Cost


       Estimates treated as


     Inaccurate Critical Data

              -               -               -     1,106      1,743       2,699         19
7    Total Exceptions from


      Rows 1, 2, 5, and 6 
                  -               -               -    30,969     32,565      34,160       355 7
8    Inaccurate/Incomplete
        Critical Data, all
       Inclusive (Rows 1                     -               -               -    29,414     31,097      32,780        339
             and 6)
9    Overstated Benefit Cost

           Estimates

              $1,019,180      $1,517,921      $2,016,662     3,674      4,953       6,233         54
10         Excess Benefits


             Collected

             $347,429        $587,090        $826,752      2,943      4,128       5,313         45
11         Excess Benefits


         Collected, Eligibility 

         Unverified, and Dual


               Benefits

            $913,033       $1,509,448      $2,105,863     4,167      5,504       6,841        70 8
12          Collections by

           Participants with


          Unverified Benefit


              Estimates

           $6,938,557      $8,383,581      $9,828,604    11,127     12,934      14,741        141
13   Inadequate Audit Trails                 -               -               -    13,976     15,869      17,763        173


     The table results can be interpreted in the following manner. Using the estimate in row 9
     as an example, we estimate, at the 95 percent confidence level, that there are between
     $1,019,180 and $2,016,662 in benefits which participants stated benefit cost estimates
     that exceeded what their actual benefit cost estimates should have been. The midpoint of
     this range is $1,517,921. We also estimate at the 95 percent confidence level that there
     are between 3,674 and 6,233 participants who overstated their benefit cost estimates. The
     midpoint of this estimate is 4,953.


     7
       The Basis (Hits) total of 355 represents the number the audit team calculated. Statisticians then used the
     355 to compute the statistical estimate.
     8
       The total “hits” from Rows 2, 5, and 9 equals 71 and not 70. This is because we identified one sample
     item that had both collected excess benefits and also dual benefits. We subtracted this item and the
     associated dollar exception.
                                                             17


Appendix D. MTB Program Processes

   Pre – FY 2008 Process
   The Program includes five processes - enrollment, change management, database
   management, records management, and distribution.

   Enrollment/Change Management
   An applicant uses Department of Defense (DD) Form 2845, “U.S. Department of
   Defense National Capital Region Public Transportation Benefit Program Application” to
   enroll in the Program or to make status changes. The applicant completes the DD Form
   2845 and self-certifies that he or she:

      •		 is employed with DOD;
      •		 is not named on a Federally subsidized workplace parking permit with DOD or
          any other Federal agency;
      •		 is eligible for the public transportation fare benefit;
      •		 will use it for daily commuting to and from work;
      •		 will not transfer it to anyone else; and
      •		 will estimate a monthly benefit cost that does not exceed actual monthly
          commuting costs; and is eligible for usual or estimated commuting costs
          (excluding parking).

   The applicant faxes the DD Form 2845 to the PFPA parking office. The PFPA parking
   office cross-references the applicant’s information with the PFPA parking database to
   determine whether the applicant has a parking permit. If the applicant does not have a
   parking permit, PFPA then forwards the enrollment application to TRANServe.
   TRANServe processes Program applications it receives from PFPA for initial enrollment,
   status changes, and withdrawals in accordance with the MOA with WHS. As part of this
   process, TRANServe enters application information from the DD Form 2845 into the
   enrollment database.

   Database Management
   TRANServe is responsible for maintaining the Program data in the enrollment database
   that identifies all DOD participants in the Program, their organizations, effective date of
   participation, value of Program benefits, and effective date of termination when
   appropriate. WHS is responsible for providing oversight over all MTB Program data.

   Records Management
    TRANServe is also responsible for maintaining sufficient records and information to
   enable WHS to comply with audit requirements. This includes applications for initial
   enrollment and change management.



                                                18

Distribution
TRANServe issues Program benefits to DOD participants on a quarterly basis at
27 locations in the NCR. TRANServe also makes monthly distributions to DOD
participants who did not pick up benefits during the quarterly distribution process. 9
Appendix D, Flowchart D-2 summarizes the Program processes, and Flowchart D-1
summarizes Pre-FY 2008 MTB Program processes.


Flowchart D-1. Pre-FY 2008 MTB Program Process

                   Enrollment-                                                                           Enrollment-
       Completion of Enrollment Applications                                                 Processing of Enrollment Applications


                         Start




           Applicant completes DD Form 2845,              PFPA cross-references DD
                    and self certifies:                    Form 2845 against PFPA                                                         PFPA
                                                                                                                                    determines that           Approved
                                                          Pentagon parking database
                                                                                                Does applicant                         Applicant is          Form 2845s
                  - Eligibility for benefits                 to determine whether                                         No
                                                                                                 have parking                       eligible for MTB      readied for pickup
             - Completeness of information                  applicant has a parking
                                                                                                   permit?                              benefits.
                - Accuracy of information                           permit.
           - Estimate of Monthly Benefit Amt.

         Applicant faxes DD Form 2845 to PFPA.
                                                                                                     Yes                                  Yes

                                                                                                                                                                           A

                                                                                             PFPA flags DD Form                         Permit
                     Completed                                                               2845 and holds until                     Surrendered
                    DD Form 2845.                                                              parking permit is                           ?
                                                                                                 surrendered




                                                                                                                                           No


                                                                                                                                     Application is
                                                                                                                                      discarded.




                               Enrollment-                                            Database Management
                         Processing of Enrollment
                               Applications
                                                                                                     PFPA cross-references
                                                                            TRANServe
                                                                                                       with PFPA parking
                                          TRANServe                          maintains
                                                                                                     database to ID parking
                         A                 picks up                          enrollment
                                                                                                      permit applicants who
                                           approved                           database
                                                                                                       have MTB benefits
                                            forms




                                          TRANServe                                                                                                      Laptop PC
                                       inputs Form 2845                                   Enrollment                                                      Display
                                             info into
                                           enrollment
                                                                                           Database
                                            database




                                                                                                                                                          TRANServe
                                                                                                                                                        distributes MTB
                                                                                                                                                       Program benefits
                                                                                                                 TRANServe                                   for DoD
                                        Form 2845s                                                           maintains records to
                                       sent to physical                                                        enable WHS to
                                           storage                                                            comply with audit
                                                                                                                requirements
                                                                                                                                                       Distributions

                                                                  Records Management




9
    We did not include the Program’s distribution process within our audit scope.
                                                                                      19


Post – FY 2007 Process
The Office of the Under Secretary of Defense (OUSD) for Personnel and Readiness
(P&R) and WHS have taken actions that will adequately address the internal control
deficiencies identified in DOD OIG report, “Internal Controls over the Department of
Defense Mass Transit Subsidy within the National Capital Region,” November 23, 2007.
Specifically, OUSD (P&R) issued DOD Instruction 1000.27, “Mass Transportation
Benefit Program.” In addition, WHS:

   •		 amended the MOA between WHS and TRANServe;
   •		 made improvements to the MTB Program enrollment application, DD Form 2845;
       and
   •		 took on more responsibilities within MTB Program processes.

These process improvements have been incorporated into Flowchart D-2,
“Post-FY 2007 MTB Program Process.”

DOD Instruction 1000.27
On October 28, 2008, the OUSD(P&R) issued DOD Instruction (DODI) 1000.27, “Mass
Transportation Benefit Program” to establish policy, assign responsibilities, and set
procedural guidance for the administration and management of the MTB Program.
Specifically, DODI 1000.27 requires DOD Component:

   •		 Supervisors to review subordinate MTB Program enrollment applications to
       confirm that employees are eligible for MTB Program benefits and that
       employees’ benefit cost calculations reflect correct work schedules. This control
       activity will improve the MTB Program enrollment application process by helping
       to ensure that MTB Program enrollment applications are accurate, complete, and
       not fraudulently filed before further processing (see Flowchart D-2, shaded box
       “1. Applicant’s Supervisor”);

   •		 Reviewing officials to review MTB Program enrollment applications for
       completeness and to ensure that applicants are not in receipt of a parking subsidy
       outside the Pentagon reservation. This control activity will improve the MTB
       enrollment application and database management processes by helping to ensure
       that enrollment applications are complete. In addition, this control activity will
       improve the enrollment application and database management processes by
       complimenting PFPA’s responsibility to perform this activity within the Pentagon
       reservation. This in turn will help to minimize the risk of applicants’ obtaining
       dual benefits (see Flowchart D-2, shaded box “2. Component Review
       Official…”); and

   •		 Program Managers to perform at a minimum, a 10 percent (100% where MTB
       Program administration is automated) annual record reconciliation to ensure
       participant accounts are correct. This control activity will improve the MTB
       Program database management and records management processes by reducing
       the level of inaccurate or incomplete enrollee information populated in the
                                           20
           enrollment database. In addition, it will help to identify unverified and potentially
           ineligible individuals in the enrollment database (see Flowchart D-2, shaded box
           “3. Component Program Mgrs”).

In addition, DODI 1000.27 states that MTB Program benefits are not permitted if the
participant is named on a federally subsidized workplace motor vehicle parking permit,
including motorcycles. Thus, DOD employees who commute via motorcycle should not
obtain and retain a subsidized parking permit for a motorcycle as well as MTB Program
benefits.

Amended Memorandum of Agreement
On September 28, 2007, the MOA between WHS and TRANServe was amended for the
period commencing no later than October 1, 2007. The amended MOA updated the
responsibilities of WHS and TRANServe and defined the responsibilities of PFPA in the
MTB Program. Specifically, in the amended MOA, TRANServe will:

       •		 only process enrollment applications that are complete (see Flowchart D-2,
           shaded symbol #4); and
       •		 cross-reference MTB Program applicants against PFPA parking databases to
           identify and report to WHS employees who have submitted applications to both
           the parking and MTB Programs (see Flowchart D-2, shaded symbol #5).

These controls should improve the enrollment processing and database management
processes. Specifically, it will minimize the processing of incomplete enrollment
applications and the risk that participants will improperly obtain dual benefits.

WHS Actions
Beginning in October 2007, WHS required MTB Program applicants to use an improved
version of the DD Form 2845 developed and implemented by WHS. The improved DD
Form 2845 includes data fields that require MTB Program applicants to:

       •		 provide detailed calculations to support monthly benefit amounts and document
           transit entry and exit points;
       •		 provide more specific demographic information, such as expanded (9-digit) zip
           codes for residence and work location and work phone number to improve
           verification of enrollment information; and
       •		 obtain certification of application accuracy and eligibility for benefits by


           supervisory and reviewing officials. 


Also, on October 29, 2007 WHS took on added responsibilities in the MTB Program,
specifically reviewing MTB Program enrollment applications for completeness,
electronically scanning enrollment applications by DOD Component, and retaining
physical records necessary to comply with audit requirements 10. These added
responsibilities will strengthen controls across the MTB Program’s enrollment, database


10
     WHS replaced TRANServe in performing these functions.
                                                  21


management, and records management processes (see Flowchart D-2, and follow circular
symbol “A”).

Flowchart D-2 summarizes the post-FY 2007 MTB Program process, with process
improvements noted in shaded symbols.

On June 23, 2009, WHS also implemented a web-based DD form 2845 application for
the MTB Program across all DOD Components. This application is Common Access
Card (CAC) enabled and captures all required applicant data, automatically cross-checks
Pentagon Reservation parking records, is auditable, and implements workflow reviews
and approvals with supervisors and program reviewing officials. The web-based process
will more effectively address internal control deficiencies across all MTB Program
processes.




                                          22


Flowchart D-2. Post-FY 2007 MTB Program Processes
               Enrollment ­
   Completion of Enrollment Applications                                                                         Enrollment-
                             Component Program                                                       Processing of Enrollment Applications
                              Mgrs ensure that
                              10% of employee
        Start
                               recertify benefits
                                   annually.               PFPA cross-references DD
                                                            Form 2845 against PFPA                                                                      PFPA
                                                           Pentagon parking database                                                              determines that            Approved
                                                              to determine whether                       Does applicant                              Applicant is           Form 2845s
                                                                                                                                     No
                                                             applicant has a parking                      have parking                            eligible for MTB       readied for pickup
       Applicant completes the new, detailed DD
                                                                     permit.                                permit?                                   benefits.
               Form 2845, and certifies:

                  - Eligibility for benefits
             - Completeness of information                                                                                                              Yes
                                                                                                             Yes
                - Accuracy of information
           - Estimate of Monthly Benefit Amt.
                                                                                                                                                                                           A
                                                                                                      PFPA flags DD Form
         Applicant submits DD Form 2845 to
                                                                                                      2845 and holds until                            Permit
                     supervisor.
                                                                   Completed                            parking permit is                           Surrendered
                                                                  DD Form 2845.                           surrendered                                    ?

                1. Applicant's Supervisor:

             -Confirms applicant is a DoD
           employee and eligible for benefits
              -Ensures MTB cost reflects                                                                                                                                  Application is
                                                                                                                                                         No
               applicant's work schedule                                                                                                                                   discarded.
                      -signs form

            Returns Form 2845 to applicant




                                                                                  Enrollment ­
                                                                      Processing of Enrollment Applications
                                                                                                                    WHS scans Form                   2. Component Reviewing Official (RO)
                          WHS:                                                                                          2845 into                      receives application from WHS and
                                                                                     WHS electronically
                 - picks up Form 2845s               Is application                                                Component-specific                             ensures that:
                                                                                       lists all Form
   A               - checks each Form                  complete?           Yes                                      folder, and sends
                                                                                           2845s
                 2845 for completeness.                                                                               Form 2845 to                           - Application is complete
                                                                                                                     Component RO.                   - Applicant doesn't have parking subsidy
                                                                                                                                                        (in non-PFPA parking databases).

                                                          No                                   Yes                                                  Signs off application and returns to WHS



                                                        WHS
                                                     attempts to                         Contact made                                                             WHS checks
                                                       contact                            to complete                                                          Form 2845 against
                                                      applicant                           Form 2845?                                                             electronic list it
                                                                                                                                                               completed before
                                                                                                                                                                   sending to
                                                                                                                                                                  TRANServe.
                                                                                                                      Records Management
                                                                                               No
                                                                                                                             WHS maintains
                                                                                                                          electronic records to
                                                                                        WHS discards
                                                                                                                            comply with audit                               B
                                                                                         Form 2845
                                                                                                                              requirements




                                                                                                                                                                         Laptop PC
                         TRANServe                     TRANServe
                          receives                  inputs Form 2845
                                                                                                 Enrollment                                                               Display
       B
                          approved                        info into                               Database
                           forms                        enrollment
                                                         database


                                                                                                                                     PFPA:
                       4. TRANserve                                                                                         -cross-references with
                                                 5. TRANserve                3. Component            TRANServe
                       processes only                                                                                     PFPA parking database to
                                                cross-references             Program Mgrs             maintains
                      applications that                                                                                        ID parking permit
                                                MTB and parking           reconcile employee          enrollment
                        are complete                                                                                      applicants who have MTB                       TRANServe
                                                   applicants               records annually           database
                                                                                                                                    benefits.                         distributes MTB
                                                                                                                          - performs reconciliations                 Program benefits
                                                                                                                               with parking data.                          for DoD

                       Enrollment ­
           Processing of Enrollment Applications                                               Database Management                                                   Distributions




                                                                                       23


24 

